                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A13020026                                                                       Page 1 of 1



                                                                             1
                 Our office received an allegation of plagiarism in a proposal . The Subject2 was intricately
         involved in a specific research program and the main source of copied text was from a white paper
         linked to that research program. We wrote to the Subject who confirmed that he was a co-author of
         the white paper in question and therefore his actions do not meet the definition of misconduct.

                   This case is closed with no further action taken.




          2




N.'<F nTG Fnrm) (11/02)
